<html>
<title> - NOMINATION OF JAMES A. WILLIAMS</title>
<body><pre>[Senate Hearing 110-990]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-990
 
                    NOMINATION OF JAMES A. WILLIAMS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                 ON THE

          NOMINATION OF JAMES A. WILLIAMS TO BE ADMINISTRATOR,
                  U.S. GENERAL SERVICES ADMINISTRATION

                               __________

                             JULY 25, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-583 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk














                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Warner...............................................     4
    Senator Collins..............................................     7
Prepared statements:
    Senator Lieberman............................................    23
    Senator Warner...............................................    25
    Senator Collins..............................................    26

                               WITNESSES
                         Friday, July 25, 2008

Hon. Thomas J. Ridge, Former Secretary of Homeland Security......     1
James A. Williams to be Administrator, U.S. General Services 
  Administration:
    Testimony....................................................     9
    Prepared statement...........................................    28
    Letter of support from Representative Tom Davis, submitted by 
      Senator Collins............................................    31
    Biographical and professional information....................    33
    Responses to pre-hearing questions...........................    45
    Letter from U.S. Office of Government Ethics.................    88
    Responses to post-hearing questions..........................    89
    Responses to additional post-hearing questions...............    98


                    NOMINATION OF JAMES A. WILLIAMS

                              ----------                              


                         FRIDAY, JULY 25, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 12:06 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon and welcome to this 
confirmation hearing on the President's recommended appointment 
of James A. Williams to be Administrator of the U.S. General 
Services Administration (GSA).
    I want to apologize both to Mr. Williams and Governor Ridge 
who were here yesterday. I got held up in an Armed Services 
Committee classified briefing that I could not leave, and I 
really apologize that I could not be here. I really appreciate 
that you are back, and it shows, obviously, the commitment of 
both Governor Ridge and the Squire of Virginia, who has just 
entered the room wearing what we call in Connecticut a 
``Litchfield County suit.'' [Laughter.]
    It is that white pin-stripe which he wears with great 
elegance. As an expression of our mea culpa, a kind of act of 
repentance, Senator Collins and I are going to hold our opening 
statements until we hear from Governor Ridge and Senator 
Warner, and we will go to that in just a minute.
    Senator Warner, with your permission, Governor Ridge has to 
head out.
    Senator Warner. Yes, please. I would be delighted to 
accommodate my good friend.
    Chairman Lieberman. Good. Governor Ridge, it is great to 
welcome back the first Secretary of the Department of Homeland 
Security with whom we worked very closely and who served so 
ably and with such a great effect for the people of our 
country. Thank you for taking the time to come here, and we 
welcome any statement you want to make now.

TESTIMONY OF HON. THOMAS J. RIDGE, FORMER SECRETARY OF HOMELAND 
                            SECURITY

    Mr. Ridge. Chairman Lieberman, thank you, and Ranking 
Member Collins. It is good to join you and Senator Warner.
    First of all, no mea culpa is necessary. We understand how 
this place operates, and when you have a special meeting like 
that, both Mr. Williams and I understand. That is where you 
need to be. So we are grateful that this has been rescheduled 
so promptly.
    Senator Warner. Mr. Chairman, if he understands how this 
place operates, I think we need him up here for other reasons. 
[Laughter.]
    Mr. Ridge. But the fact is I understand that there is no 
rhyme or reason to it. [Laughter.]
    It just does.
    Chairman Lieberman. Now you get it. When I was in the 
Connecticut State Senate a long time ago, somebody once said to 
me, ``At a moment like this, if you are not confused, you do 
not understand the situation.'' [Laughter.]
    Mr. Ridge. I think that is it.
    Well, I thank you all today for the opportunity to join you 
and for the personal privilege of spending a little time 
talking about my friend, Jim Williams.
    When the Department of Homeland Security was formed, one of 
the first actions undertaken, I think at the direction of 
Congress in the enabling legislation, was a commitment to built 
the Nation's first entry-exit system. The Department doors 
opened in March 2003. I think in May I announced that we would 
complete this goal by the end of the same year, about 7 months. 
I wish you could have all seen the expression on my staff's 
faces when I said that we would get it done by then.
    It was an immense challenge. The system had to be 
implemented at all U.S. airports and seaports, and it 
absolutely required the use of biometrics to be effective. It 
had to be implemented in a way that did not discourage or harm 
our travel and trade industry, but it also needed to protect 
the privacy of our visitors as well.
    In fact, we chose the name US-VISIT to reflect that the 
United States was, is, and will always be a welcoming Nation, 
and the system would uphold that philosophy. This new system 
would represent a major change in how we enforced our 
immigration laws. We knew this would require extensive 
collaboration within the government, with our stakeholders, 
many stakeholders outside the government in the private sector, 
as well as other countries. After all, such an aggressive 
effort had never been done before or even attempted, frankly, 
anywhere in the world.
    Asa Hutchinson, my very able Under Secretary for Border, 
Transportation, and Security, was put in charge, and one of his 
first actions was to take a look around and find the best 
person to implement the program, and he found Mr. Williams. Mr. 
Williams quickly assembled a very talented and dedicated team 
of people, many of whom I think are here with us, who over 
those 7 months--think about this, 7 months--successfully 
completed a job most people said could not be done.
    Mr. Williams made sure it was done superbly and on time, 
with the integrated biometrics as an integral piece of that. He 
and his team delivered what was needed and required to ensure 
that foreign travelers entering America were screened with 
biometrics in a matter of seconds, thus satisfying our security 
requirements, and yet still allowing visitors to our country to 
see in essence the welcome mat that has long rested at the 
doorstep of our country.
    Those with questionable intentions were stopped from 
entering the country at the State Department consulates and at 
our borders. It was a successful beginning for the US-VISIT 
program and, I think, a historic achievement for the 
Department.
    Also because we engage with our stakeholders and leaders 
worldwide, the transition to this significantly new system was 
smoother than anyone predicted. His sustained leadership within 
his team, positive outreach and communication to all 
stakeholders--and I mean he motivated his team, but spent a 
great deal of time on the road talking to counterparts in the 
private sector and elsewhere around the world to explain the 
system. His positive outreach and communication to all 
stakeholders was critical to its success.
    Indeed, other countries have since adopted the identical 
entry-exit system, and in some cases they have called on Mr. 
Williams and part of his team to get counsel in order to figure 
out how to do it well, to do it right, and to do it on time.
    Earlier this year, Secretary Chertoff and I celebrated, 
along with the President and current and former DHS employees, 
our 5-year anniversary. US-VISIT was one of the finest and most 
notable DHS successes. That brought great pride and spoke 
volumes about Mr. Williams, the man who did more than anyone to 
make the program such a success.
    And more good things are to come for the US-VISIT system, 
but I am here today to salute the leader, Mr. Williams, who 
gave the system its beginning, its foundation, and who did what 
others said was too difficult to do: make US-VISIT possible.
    Mr. Williams would agree it was hard work, but he has also 
given the credit to his team more than to himself. And while 
this was very much a team effort, I want to tell you that it 
was his leadership, the leadership of a dedicated patriot and 
public servant, that helped us ensure an important security 
achievement that increased the security for all of us.
    I will tell you that Mr. Williams is one of the most 
talented, results-driven, self-effacing, capable public 
servants with whom I have ever had the pleasure and privilege 
to work. Mr. Williams is a man of strong and unimpeachable 
character, great integrity, great personal grace, and a work 
ethic that is absolutely second to none.
    Teddy Roosevelt once said, ``Far and away the best prize in 
life is the chance to work hard at work worth doing.'' Mr. 
Williams views his public service career through that prism. It 
is a unique perspective that I share today because far and away 
the best prize for me at this moment is to once again very 
publicly thank Mr. Williams and his team for their great work, 
to thank him for his service and his friendship, and to 
recommend, with great pride and without hesitation, Mr. 
Williams as the best person to lead GSA through this transition 
period between Administrations and beyond.
    I thank my colleagues and former colleagues for the 
courtesy that you have extended to me, for giving me the 
opportunity to introduce him to you.
    Chairman Lieberman. Thank you very much, Governor Ridge. 
That was a very eloquent and, I must say, powerful statement. 
It says a lot about Mr. Williams, and frankly, the fact that 
you came here to say it says a lot about you. So I appreciate 
it very much.
    Senator Collins, would you like to say anything?
    Senator Collins. I was just going to echo exactly what the 
Chairman said, that those words are certainly words of high 
praise, but also, Secretary Ridge, for you to take the time out 
of your extremely busy schedule not only speaks well of Mr. 
Williams, but it is a real tribute to how much you care about 
the people who have worked with you and served our country.
    So I thank you for your continued commitment. You have a 
terrific record of public service, and I wanted to just second 
the comments of my Chairman in saying how much this Committee 
enjoyed working with you during your tenure. So thank you.
    Mr. Ridge. It is mutual. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Collins.
    Governor Ridge, I know you have a long trip ahead of you, 
so you can depart whenever you want or stay as long as you 
want.
    Mr. Ridge. Why, thank you. I thought I would stay and 
listen to my colleague from Virginia sing the praises of my 
friend and then leave before he gives his introductory 
statement.
    Senator Warner. That is very thoughtful.
    Chairman Lieberman. Very good. Senator Warner, thank you 
for being here.

                  TESTIMONY OF SENATOR WARNER

    Senator Warner. Delighted. I will be very brief, but I must 
say I have been here 30 years now, and that was about as fine 
an endorsement that I have heard in these many years. And it 
just shows the enormous leadership of Governor Ridge, and he 
feels duty-bound to help make this government work so it can 
serve its people. And, Governor Ridge, it is a privilege to be 
with you again.
    Mr. Ridge. Thanks, Senator.
    Senator Warner. But I would like to say at this moment you 
are free to go. [Laughter.]
    Mr. Ridge. I do not know if that is a suggestion or an 
order.
    Chairman Lieberman. It does come from the former Secretary 
of the Navy.
    Senator Warner. But I was sitting here throughout that, and 
I was figuring out, hmm, I wonder if I need an endorsement 
someday. [Laughter.]
    I will get him to endorse me.
    Chairman Lieberman. Well, we have been trying to convince 
Senator Warner to run again.
    Senator Warner. No, that is not an option. I have enjoyed 
my wonderful career here and enjoyed working with you when you 
were a member of the Cabinet.
    Mr. Ridge. I have, too, Senator.
    Senator Warner. Mr. Chairman and Senator Collins and all 
present, I have had the opportunity through many years and many 
positions to work with the GSA, and I just think it plays such 
a vital role in making our government function. And it does a 
lot of those things that other people would just as soon not 
have the responsibility to do. And as I have come to know James 
Anthony Williams, he is unquestionably, as Governor Ridge said, 
very able, very well qualified, and I take the perspective that 
we are fortunate as citizens to have him step up and take on 
this responsibility.
    I am partial, of course, to him because of his long 
association with the Commonwealth of Virginia, but when we have 
the opportunity to visit with our nominees before we come speak 
to the Senate, he shared with me the pride he had in his 
father, and that really endeared me to him. His father was a 
graduate of the University of Virginia, in the ROTC program, 
and then went on to make a career in the U.S. Navy and served 
with great distinction. That touched my heart.
    So I will simply summarize that he is able, he is ready, he 
is going to have my strongest support, and indeed I hope he 
gains the support of the Chairman and the Ranking Member and 
Members of this Committee. His background is eminently suited. 
He earned his bachelor's degree from the Virginia Commonwealth 
University and then his MBA from George Washington University. 
He has dedicated most of his professional career to the 
Executive Branch of our government. And I will just put the 
balance of my statement in the record, wish him well, and, 
again, on behalf of the citizens of this country, we thank you 
for taking this service on, and your family sharing that 
responsibility.
    Chairman Lieberman. Thank you, Senator Warner, again for 
your eloquent statement in support of Mr. Williams.
    You are off to a good start here this morning, Mr. 
Williams. [Laughter.]
    Thanks to both of you.
    Senator Warner. Thank you very much.
    Mr. Ridge. Thank you.
    Senator Collins. Thank you.
    Chairman Lieberman. I wish you a good weekend.
    We will proceed. Let me just start by welcoming you, Mr. 
Williams.
    The General Services Administration (GSA) plays a very 
important role in helping the rest of the Federal Government 
run more efficiently and effectively.
    GSA is often called the Federal Government's ``landlord'' 
because it provides the workspace and office services for 
almost every Federal office and agency across the Nation.
    But, of course, GSA, as you know very well, Mr. Williams, 
is a lot more than just the government's landlord. Its 12,000 
employees are spread across the country in 11 districts and 
help guide the spending of approximately one-half trillion 
dollars for purchases of everything from basic office equipment 
to alternative fuel vehicles.
    If GSA were a private entity, it would be in the Fortune 
100. Its decisions have broad implications not only for the 
government, but for our economy.
    Given these stakes, it is important that GSA have not only 
top-flight leadership but good, steady leadership as well.
    If confirmed, Mr. Williams would be the fifth GSA 
administrator in less than 8 years following the tenure--which 
was, unfortunately, troubled--of Lurita Doan.
    Ms. Doan resigned after sparking Congressional and other 
investigations over allegations that she used her office to 
promote partisan politics, tried to reduce the crucial 
oversight role of the agency's Inspector General, and 
improperly interfered in the contracting process.
    Mr. Williams, if you are confirmed, you know you would have 
only 5 months left in the Administration, but in that 5 months 
would, I think, have a very important opportunity to provide 
the leadership to GSA needed to restore public and 
Congressional confidence in it, keep the agency on an even 
course in carrying out its duty to spend American taxpayers' 
money wisely, and help ease the transition to the next 
Administration.
    It is worth noting that, if confirmed, Mr. Williams would 
be the first career civil servant appointed to head GSA, and 
that is significant. Mr. Williams brings very unique 
qualifications to this job. Presently the Commissioner of GSA's 
Federal Acquisition Service, Mr. Williams was previously part 
of the Clinton Administration's original ``Partnership for 
Reinventing Government'' team and has been a leader on 
procurement and technology issues for the Internal Revenue 
Service (IRS), the Department of Homeland Security, as Governor 
Ridge indicated, and the Office of the U.S. Trade 
Representative for Negotiations with the Government of Japan.
    Overall, Mr. Williams has been in public service for 28 
years, with 17 years as a senior executive, and beyond anything 
else, I think we owe you a debt of gratitude for both choosing 
a career in service to your Nation and conducting yourself as 
admirably and efficiently as you have.
    The only controversy of which I am aware involving your 
nomination, Mr. Williams--and I want to discuss it with you in 
the question-and-answer period--is what role you may have 
played in contracts involving Sun Microsystems, which are also 
controversial. Specifically, as you know, GSA leadership is 
alleged to have improperly pressured a contracting officer to 
renew a contract with Sun Microsystems for computer products 
and services.
    That disputed contract negotiation occurred at a time when 
Sun Microsystems was under investigation by the agency's IG and 
the Justice Department for potential fraud in connection with 
its previous contracting practices with GSA. And that case, of 
course, was one of the main reasons why Congress lost 
confidence in your predecessor. So it will be important for the 
Committee to understand your role in this and what lessons may 
have been learned as a result of it.
    I also want you to know that I would like to review the 
status of the Department of Homeland Security headquarters 
project, which appears to be delayed and is of real importance 
to this Committee.
    Mr. Williams, bottom line, you have a distinguished record 
of service to your country. GSA is in dire need of exactly the 
kind of strong and competent leadership that I believe you have 
the ability to provide. I certainly hope that you will be able 
to satisfy this Committee in its questions today and ultimately 
the Congress that, if confirmed, you will always, as you have, 
keep in mind first and foremost the interests of the citizens 
and taxpayers that we are privileged to serve.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Williams comes to this Committee with two decades of 
experience in Federal service. As we have learned, he has 
worked at the Department of Commerce, Homeland Security, IRS, 
and GSA. And I mention that because that breadth of experience 
is very important given the responsibilities of the GSA.
    That public service, which has included work on modernizing 
IRS business systems, helping to negotiate a supercomputer 
agreement with the Government of Japan, and leading a 
contracting effort for installing weather reconnaissance gear 
on Air Force transports, is very useful experience for the 
major challenges that GSA faces today and will encounter in the 
years ahead.
    The size and reach of GSA's operations make meeting those 
challenges vital. GSA has more than 13,000 employees and an 
annual budget of approximately $16 billion. It is charged with 
managing nearly $500 billion in Federal assets--including more 
than 8,600 government-owned or -leased buildings and a fleet of 
208,000 vehicles. And the Chairman and I are particularly 
interested in that vehicle fleet. With the size of that vehicle 
fleet, the GSA should be leading the way in reducing the use of 
gasoline-fueled cars and instead pursuing hybrid cars and other 
ways to decrease our energy use as the Federal Government. 
GSA's performance has a significant impact on the efficiency 
and effectiveness of government-wide operations. It affects 
almost $66 billion in financial transactions throughout the 
government. And as we know, GSA is also the Federal 
Government's primary acquisition agency and landlord.
    This Committee has done a lot of work in the area of 
Federal contracting. We have done investigations in the 
failings of Federal contracting, and we have incorporated those 
lessons into legislation the Chairman and I have introduced, a 
bill that would reform Federal acquisition practices and that 
has passed the Senate but now is stalled in the House.
    An immediate demand on the attention of the new GSA 
Administrator will also be the presidential transition, and I 
think it is critical that we have a new leader in place as we 
look forward to the work that will need to be done to establish 
offices and provide technology and support services immediately 
after Election Day.
    The Chairman mentioned another challenge facing GSA, and 
that is the sorely needed consolidation of Department of 
Homeland Security offices at the St. Elizabeths Hospital 
complex.
    Of particular concern to Maine and other border States is 
the critical role that GSA plays in enhancing our Nation's 
border security by managing the planning, design, and 
construction of ports of entry for Customs and Border 
Protection. It is now estimated that a port of entry takes more 
than 7 years between the beginning of the planning phase and 
the completion. That is simply too long. And I know that Mr. 
Williams has indicated his willingness to identify ways to 
shorten this time period.
    In my home State of Maine, there is a new port of entry in 
Calais that is under construction. It has been seriously 
delayed by GSA's failure to award the construction contract on 
time and to adequately account for the presence of significant 
ledge at the construction site. Ledge is a very common 
occurrence in the State of Maine, so this should not have come 
as a surprise.
    These delays are having real effects. Although the new 
international bridge connecting Calais, Maine, with St. 
Stephen, New Brunswick, will be completed this year, the 
American side of the port of entry is now delayed so that the 
completion will not occur until the end of next year.
    So imagine, Mr. Chairman, here we have this new 
international bridge. The Canadians are all set with their new 
port of entry on their side of the border, and because of 
contract delays on our side of the border, we will not be ready 
to open up the American side of the new port of entry until the 
end of next year, almost a year delay. That, frankly, is an 
international embarrassment, and it has an impact on the 
economy of Washington County. So this is an issue I have 
already talked to Mr. Williams about, but it is going to take 
some reprogramming of funds and a real commitment to try to 
make this gap in the opening of the ports of entry on each side 
of the border as short a gap as possible. I look forward to 
talking with Mr. Williams about these and other border issues 
today.
    I want to second the Chairman's concerns about the Sun 
Microsystems contract issue. I have had the opportunity to 
discuss that issue with Mr. Williams, and I am personally 
satisfied with the role he played in his responses, but I do 
think it is important that for the record we get those 
responses before the public.
    Finally, Mr. Chairman, I would like to have entered into 
the record a letter that Congressman Tom Davis, the Ranking 
Member of the House Committee on Oversight and Government 
Reform, has sent to both of us in support of Mr. Williams' 
nomination.
    Chairman Lieberman. Thanks, Senator Collins. Without 
objection, Congressman Davis' letter will be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The letter submitted for the record by Senator Collins appears 
in the Appendix on page 31.
---------------------------------------------------------------------------
    Let me proceed with the formal beginning. James A. Williams 
has filed responses to a biographical and financial 
questionnaire, answered pre-hearing questions submitted by the 
Committee, and had his financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the hearing record, with the 
exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. So, Mr. 
Williams, I would ask you now to please stand and raise your 
right hand, if you would. Do you swear that the testimony you 
are about to give the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Williams. I do.
    Chairman Lieberman. Thank you very much. Please be seated.
    Mr. Williams, I understand that various members of your 
family are here today. We welcome them, and I would ask you now 
to proceed with your opening statement, and, of course, we 
would be happy to also have you introduce the members of your 
family.

   STATEMENT OF JAMES A. WILLIAMS TO BE ADMINISTRATOR, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Mr. Williams. Thank you. Chairman Lieberman, Ranking Member 
Collins, it is my honor to appear before you today. I would 
like to thank you in advance for your support of GSA, and I 
would like to thank the people who have helped make this 
wonderful opportunity possible.
    Thank you to my good friend and former boss at the 
Department of Homeland Security, Governor Tom Ridge, and also 
to Senator Warner for their kind introductions of me to the 
Committee. And I would also like to thank Congressman Tom 
Davis.
    I would like to also recognize my family and friends, but 
especially my wife, Nancy; my daughter, Anne, and my son, 
Jimmy; and my other family members who are also here. My wife, 
my daughter, and my son are very dear to me, and I appreciate 
them being here today as well as my other family and friends.
    During a career in Federal service that has spanned nearly 
three decades at the IRS, Commerce, DHS, and now GSA, I have 
been afforded the chance to work closely with fine and 
dedicated people. I feel lucky. I am here because of this great 
fortune, and while I cannot possibly thank all of these 
individuals, some of the key leaders I have worked under and 
greatly admire include Charles Rossotti, Asa Hutchinson, 
Admiral Jim Loy, Gordon England, and Governor Ridge. I am also 
especially proud of the current team of leaders I work with at 
GSA. And, last, though they are not present, I would like to 
acknowledge my father, a career naval officer, and my mother, a 
former Navy nurse and mother of seven. My parents will be an 
inspiration to me always.
    Just as we are here today to ensure an orderly transition 
from one Administrator to the next, GSA plays a strategic role 
in ensuring the orderly transfer of power from one President to 
the next. GSA helps preserve our history in other ways as well, 
maintaining our legacy buildings that help define our Nation 
and our ideals. GSA also works to preserve our precious natural 
resources and make all of us better environmental stewards.
    Additionally, GSA will continue to be a leader in 
government-wide policies to provide for better management and 
stewardship of key assets. We have assumed these 
responsibilities without wavering from GSA's original 
commitment to provide goods, services, and work space at best 
value. GSA does provide critical support to the warfighter, the 
firefighter, and Federal, State, and local employees. GSA's 
presence can be seen in nearly every major city in the United 
States at Federal courthouses and land ports of entry and also 
in over 100 countries around the world.
    At GSA, we also recently completed the largest 
reorganization in our history by establishing the Federal 
Acquisition Service with the help of Congress, and I am very 
proud to have been a part of that successful effort.
    Chairman Lieberman and Ranking Member Collins, I want you 
to know that, if confirmed, I would work to maintain GSA's 
status as one of the top places to work in the Federal 
Government, to maintain and improve the excellent financial 
record we have achieved, and continue to focus on attracting 
and retaining bright, energetic, and committed public servants, 
particularly in the acquisition field.
    Before I conclude, I would like to thank you, Mr. Chairman 
and Ranking Member Collins, and your dedicated staff for all 
the work that has been done in preparation for this hearing. 
Also, I appreciate greatly our Regional Administrator, Emily 
Baker, and our head of Congressional Affairs, Kevin Messner, 
and members of my immediate staff--my assistant, Bobbi Conde 
and others--for getting me ready and leading me through this 
process. If confirmed, I pledge to work hard and collaborate 
with the current and incoming Administration, the Congress, our 
oversight entities, private sector partners, and all GSA 
employees to achieve these goals.
    I am proud to have served our great country throughout my 
career. I would also be proud to represent the diverse men and 
women of GSA who work so hard to meet the needs of our client 
agencies and the American people. I am honored to work among 
them today and would be honored to lead our team as the GSA 
Administrator.
    Again, thank you, and I would be glad to respond to your 
questions. And if you do not mind, I did not know if my other 
family members are here because I could not see them.
    Chairman Lieberman. Go right ahead, yes.
    Mr. Williams. My sister Martha, and her husband, John; my 
sister Susan; my twin brother, John, is also here. And I 
believe that is it.
    Chairman Lieberman. Thank you, and welcome to all of you. I 
am going to start my questioning with the standard questions we 
ask of all nominees.
    Mr. Williams, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Williams. No, Mr. Chairman. I am currently a member of 
four boards of directors, and I have agreed to resign as a 
member of the board of directors of all of those.
    Chairman Lieberman. Fine. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Williams. No, sir.
    Chairman Lieberman. Thank you. And, third, do you agree 
without reservation to respond to any reasonable summons to 
appear and testify before any duly constituted committee of 
Congress if you are confirmed?
    Mr. Williams. Yes, sir.
    Chairman Lieberman. Thank you very much. Let me suggest 
that we do an 8-minute round since it is just the two of us, 
and I will begin. Let me get right to the Sun Microsystems 
question because I do want to try to clarify it.
    As you know, there is at least one colleague of ours--
Senator Grassley--who has some very strong feelings about this. 
Just for the record as background, an audit performed by the 
GSA Office of Inspector General in 2004 found that under a 1999 
contract between Sun Microsystems and GSA, Sun Microsystems had 
billed the government millions more for computer software and 
technical support than it charged its regular commercial 
customers. The report also included allegations of fraud by Sun 
Microsystems which were subsequently referred to the Department 
of Justice in April 2006.
    When you arrived at GSA in June 2006, negotiations on a new 
contract were ongoing. A critical report by Senator Grassley 
alleged that Ms. Doan and you--Ms. Doan, then GSA 
Administrator--pressured and even harassed the contract officer 
to sign the Sun Microsystems contract against his better 
judgment. I am repeating the allegations in the Grassley 
report. So let me go to the questions.
    I want you to take a moment to describe your involvement in 
the Sun Microsystems contract and respond to the specific 
allegation that you inappropriately pressured the 
aforementioned contract officer.
    Mr. Williams. I would be happy to, Mr. Chairman. First, I 
would like to say that the ultimate contract that was signed 
with Sun Microsystems by the GSA contracting officer, I 
believe, was a good deal for the taxpayers, and the contract 
proposal----
    Chairman Lieberman. This is the second one, as it were, the 
one we are talking about.
    Mr. Williams. The second one.
    Chairman Lieberman. Right.
    Mr. Williams. The contract proposal that was talked about 
in the impasse briefing that was rejected by the contracting 
officer was never signed, and only after Sun Microsystems made 
concessions after that impasse was reached, when they made 
concessions then the contract that was negotiated after that, 
that is the one that was signed. The contracting officer 
believes that was a good deal for the government and so do I.
    Let me talk about my role. When I came to GSA, I was 
focused on finalizing the Federal Acquisition Service, but I 
was told there was a meeting on my calendar to discuss Sun 
Microsystems. That was on August 14, 2006, and that is what is 
referred to as the ``impasse briefing.''
    Chairman Lieberman. Right.
    Mr. Williams. And at that meeting there were several 
contracting people who worked for me; the Inspector General 
folks, I believe, were on the phone; and people from our 
General Counsel's office participated. And what was presented 
to me was that in the negotiations that had been going on--as 
you said, Senator, this was a renewal of a prior Sun 
Microsystems contract. There was a Sun Microsystems contract 
from 1999 to 2004. Now, from 2004 into 2006, there had been 
ongoing negotiations with Sun Microsystems, and the 
negotiations, as I understood it, were in parallel tracks. One 
was to negotiate a new 5-year contract for products and 
services, and at the same time they were negotiating with Sun 
Microsystems to fix the problems that Sun Microsystems had in 
the prior contract where they had not adequately tracked their 
discounts and passed those discounts on to the Federal 
Government.
    Prior to my coming there, they had negotiated what I would 
say was about 90 percent of the contract. Again, people knew 
about the past overcharging, yet they continued to negotiate, 
and that was the contracting officer and the IG auditor 
participating, working side by side, to do those negotiations. 
It was a year and a half to 2 years before I got there.
    But then they reached a point where they became at a 
stalemate with Sun Microsystems. Sun Microsystems refused to 
include things like services, and we thought they should be 
included. And what came to me on August 14, 2006, was this 
impasse briefing where people said to me, ``We cannot negotiate 
a good deal with Sun Microsystems.''
    I was also told about the problems with the prior contract, 
and it was made very clear to me that I should do nothing to 
interfere with what would happen with the IG and the Justice 
Department looking at that prior contract.
    Chairman Lieberman. And you were told about that at that 
August 14, 2006, meeting?
    Mr. Williams. Yes.
    Chairman Lieberman. About the problems with the earlier 
contract?
    Mr. Williams. Yes, sir.
    Chairman Lieberman. So you took that, I presume, is it fair 
to say, as a warning to at least proceed cautiously?
    Mr. Williams. Yes, sir.
    Chairman Lieberman. Right. Go ahead.
    Mr. Williams. And I understand that they had been 
negotiating this new contract for 1\1/2\ to 2 years. They had 
also been negotiating this corrective action plan with Sun 
Microsystems to make sure they fix their systems problems so 
that if we entered into a new contract with them, we would not 
have the same problems we had in the prior contract.
    My understanding is that prior to my arrival, the 
contracting officer, working with the Office of the Inspector 
General auditor, had agreed that this was a good corrective 
action plan by Sun Microsystems. I absolutely agreed with the 
IG that, for whatever overcharging that had gone on in the 
past, they should, frankly, go get them, go after that money. 
That was money owed to the taxpayer. But my understanding was 
that there were people who had been working for a year, a year 
and a half, on negotiating this new contract, and they had just 
reached a sticking point in the negotiations.
    At the end of the impasse briefing, I said, ``Fine, we are 
done. We are finished with Sun Microsystems. They are not going 
to be a contractor in this.''
    What changed then was Sun Microsystems had a change in 
leadership, and they contacted us and said they were willing to 
make concessions. They came back to us and said, ``We want to 
come back to the table.'' And the first contracting officer 
with that impasse deal did the right thing. He came to his 
supervisors, according to the Federal Acquisition Regulation 
(FAR), and said, ``I am at an impasse.'' His supervisors 
reviewed that and said, ``We agree. This is not going 
anywhere.'' They tried with Sun Microsystems. They could not 
make any headway. We were at an impasse.
    Then when Sun Microsystems came back and said they were 
willing to make concessions, knowing that we had negotiated 
this corrective action plan, knowing that 90 percent of the 
contract had already been negotiated long before I got there, 
Sun Microsystems was willing to come back and do things like 
include services, which they had not before. And to me it was 
like buying a car. If you want to buy a car, you want to buy 
the car and you want to negotiate the warranty provisions at 
the same time. And Sun Microsystems had not been willing to do 
that. With their new leadership they were willing to change.
    So we had a conference call. I was at a meeting in 
Baltimore. I had a conference call, and I said to people, ``Sun 
Microsystems wants to come back. They want to make 
concessions.'' I even told them about the conversation with Sun 
Microsystems, how they very much wanted not to lose their GSA 
contract. I did say I thought this was important to GSA that we 
go back to the table. But having been a contracting officer for 
many years, I made it clear to people who were on that 
conference call that if they could not get a good deal, we 
would walk away. And I would never tell any contracting officer 
and I would never want anybody to tell any contracting officer 
under me to go get a contract no matter what the cost is. We 
are just stewards of the taxpayer money. I frankly do not care 
what contractor gets a contract or not. I care about getting 
the best deal for the taxpayer.
    Chairman Lieberman. Let me stop you there. I want to just 
get it all out because it will probably come out or it will be 
brought out by Senator Grassley or others at some later point. 
His report suggests that you pressured the contract officer, 
and I want to ask you whether you believe that any of your 
actions might have contributed to the perception that 
inappropriate pressure was placed on the contracting officer by 
you or others, but particularly, obviously, by you.
    Mr. Williams. I do not believe I did, Mr. Chairman, and I 
tried to be clear in my communications. Looking back, I would 
have done things slightly differently. Ultimately, I believe we 
got a good deal for the government.
    The contracting officer and the contracting folks who first 
said that first proposal at the impasse briefing was not 
acceptable, I completely supported them. And then when it came 
time to go back to the table with Sun Microsystems, I had heard 
that the contracting officer did not want to continue working 
on this. I thought I was doing the right thing by asking him 
did he want to continue to work on this. He said no.
    Chairman Lieberman. Right. Did you suggest it to him first 
or did he ask to be reassigned?
    Mr. Williams. I was told that he did not want to continue 
working on this.
    Chairman Lieberman. You were told that he had told somebody 
else that.
    Mr. Williams. Yes.
    Chairman Lieberman. And then you confirmed that with him.
    Mr. Williams. Well, honestly, sir, I did not confirm it 
with him. I relied on the people who told me he did not want to 
work on it. So when it came time to go back to the table, I 
asked him, ``Do you want to continue to work on this?'' I 
thought I was being fair to him. And he said no, and I accepted 
that.
    In fact, after the conference call was concluded, I said to 
people, ``Look, this sounds like a great guy. He has been doing 
his job. Make sure that we treat him fairly. Just because he 
does not want to work on this, he should be OK.''
    Chairman Lieberman. So the new contract officer came in 
early September, if I get the dates right, and within a week 
and a half or so, he recommends that this contract be signed 
according to the narrative that you have described.
    Mr. Williams. Yes, sir. It was actually a she, and she came 
in when Sun Microsystems made the concessions--and, again, 90 
percent of the contract in my mind was already done. We had two 
large sticking points. Sun Microsystems made concessions on 
both. She then finished the negotiations.
    What she did was review----
    Chairman Lieberman. That is an important point; 90 percent 
of the contract negotiations were done when this new contract 
officer came in.
    Mr. Williams. It was already completed, and they were 
completed----
    Chairman Lieberman. Yes, it is important because there have 
been suggestions by some of the critics here that the new 
contract officer approved the contract in an unduly brief 
period of time, which was just 9 or 10 days. But your response 
to that is that most of the contract actually had already been 
negotiated by the time the new officer came in.
    Mr. Williams. Yes, sir. Again, they had been negotiating 
since 2004.
    Chairman Lieberman. Right.
    Mr. Williams. And Sun Microsystems has a long line of 
products, and those products had been negotiated almost 
completely. One of the remaining sticking points that was out 
there was Sun Microsystems's failure to include maintenance. 
And at the impasse briefing, the acquisition staff said, ``We 
don't want to go forward unless they include maintenance.'' I 
supported that.
    The other thing that was not done, as I understand it, was 
we did not have agreement on what the discounts should be, and 
what was negotiated in the end by the contracting officer was a 
tiered discount so that as our volume of sales or volume of 
buys went up with Sun Microsystems, our discount became 
greater. And we thought that was a good deal for the 
government.
    And what she negotiated was reviewed again by our 
supervisors, and it was approved. I did not participate in the 
negotiations at all. I relied, first of all, on the contracting 
officer to tell me they were at an impasse, and the supervisors 
told me that. I relied the second time on the contracting 
officer and the supervisors who told me they had then 
negotiated a good deal for the government.
    Chairman Lieberman. But, again, on the important point of 
your involvement, you do not think you did anything that could 
have been seen as inappropriate pressure on the contract 
officer to do something the contract officer did not want to 
do?
    Mr. Williams. I do not believe so, sir. But, again, looking 
back in hindsight, when I had the conference call in Baltimore 
and when I said to people, ``I think this is important that we 
go back to the table,'' we would like to have Sun Microsystems 
under contract. Our customers buy a lot of Sun Microsystems 
products and services from us. And looking at all the 
circumstances around it, I thought it was important that since 
Sun Microsystems made the first move to say, ``We are willing 
to make concessions,'' I thought we should go back.
    Chairman Lieberman. Right.
    Mr. Williams. But I believe that I made it perfectly 
clear--maybe not perfectly; I made it clear. Like I would say 
to any contracting officer, if you cannot get a good deal, we 
will walk away.
    Chairman Lieberman. Right. Good enough. I am way over my 
time. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me just pick up on a couple of points that the Chairman 
just discussed with you. First, it is your testimony that you 
told the contracting officials that if they could not get a 
good deal for the taxpayers, they should let the contract 
expire. Is that correct?
    Mr. Williams. Yes, Senator, and I believe the notes of one 
of the senior contracting people from the conference call 
support that I said that.
    Senator Collins. And you have also testified in response to 
Senator Lieberman that you did not place any pressure on Mr. 
Butterfield, the contracting officer, to accept Sun 
Microsystems's position and complete the contract renewal. Is 
that correct?
    Mr. Williams. It is correct, and I supported him in 
rejecting the proposal that was part of the impasse briefing.
    Senator Collins. Now we get to the issue that has created 
some concern, and that is the fact that the contracting 
official, Mr. Butterfield, did not complete the final 
negotiations, even though most of the negotiations had been 
completed by the time he removed himself.
    Did you in any way pressure Mr. Butterfield to step aside 
from the negotiations and allow another contracting officer to 
complete the contract?
    Mr. Williams. No, ma'am. In fact, I thought I was helping 
Mr. Butterfield and agreeing to his wishes.
    Senator Collins. There is only one other issue related to 
this contract that we have not covered that I want to bring up, 
and that is the report by the Postal Service IG, which took a 
look at allegations that the GSA IG had been intimidating GSA 
employees in the course of the IG's review of the Sun 
Microsystems contract.
    The Postal Service IG found that you did not take any steps 
to independently verify those allegations, but instead just 
reported them to the GSA Administrator. The reason that is of 
concern is there obviously was a very poor relationship between 
the IG and the Administrator.
    Could you tell us of your role in handling those 
complaints?
    Mr. Williams. I would be happy to. At the impasse briefing 
that we had, the initial meeting on August 14, 2006, after the 
meeting was concluded, one of our senior contracting people--I 
was standing off to the side in the meeting room--told me that 
Mr. Butterfield had felt intimidated and threatened by the IG 
and that he did not want to continue working on this. That is 
what was told to me in front of several other people.
    I did not then go directly to Mr. Butterfield to verify 
that statement. I wish I had, because I later heard, long after 
all of this, that Mr. Butterfield said he did not say that to 
his supervisor. In fact, it was his second-level supervisor.
    I did pass this comment, along with the discussion of Sun 
Microsystems, on to Administrator Doan. But in terms of 
independently verifying, I did pass this informally on to Gene 
Waszily, who was the Deputy IG for Audits, and who was 
responsible for all these audit people. And I said, ``Gene, I 
heard this. I heard that your people had said things to the 
contracting officer that made him feel intimidated.'' Mr. 
Waszily said, ``I will look into it.'' And I had a good 
relationship with Mr. Waszily, and later on, he was asked, 
``What did you find?'' And he said, ``I could not find any 
merit in those allegations.'' And I accepted that.
    Senator Collins. As I indicated, the relationship between 
the previous Administrator and the Inspector General at GSA was 
one that was plagued by conflict. How do you see the 
relationship in general between the head of an agency and the 
IG?
    Mr. Williams. Well, first, I would say, Senator, that I 
believe I have a good relationship with the IG and his staff 
and have always had that, and I hope to build on that.
    I do see the Administrator and the Inspector General as 
having common goals. We are stewards of the taxpayer money, and 
our goal is to make sure we meet the needs of our customers and 
do it in a compliant way and get best value for our customers. 
And I see the IG as an independent role that would help the 
Administrator accomplish those goals together.
    Senator Collins. Thank you.
    I want to turn to the issue that I mentioned in my opening 
statement of particular concern in the State of Maine. As you 
know from our previous conversations, I am very troubled by the 
fact that the port of entry in Calais, Maine, will not be 
completed until many months after the new international bridge 
and the Canadian side port of entry are ready for use. This is 
of tremendous disappointment to the people in Washington County 
and to the community of Calais in particular. And, 
unfortunately, the delays were caused by the GSA not promptly 
awarding the construction contract and then the subsequent 
discovery of ledge, which has made the construction more 
difficult and more expensive.
    I have had many conversations with the previous 
Administrator, who actually came to Calais for the ground-
breaking to discuss this issue with local and Canadian 
officials. But it is clear now that additional funds are going 
to be required to complete the construction of the facility.
    What are GSA's plans for finding the additional funds that 
are going to be necessary to prevent still further delays in 
the completion of this vital project?
    Mr. Williams. Well, Senator, as you know, I am fully aware 
of the economic impact of our land ports of entry, having 
visited many of them, and I understand their importance to our 
economy and their importance to just connecting with our 
closest neighbors in Canada, and also in Mexico. And I do not 
think anybody in GSA is happy about where we are right now on 
Calais. We did run into problems in awarding the contract and 
in unforeseen site conditions in terms of the significant 
amount of ledge that was there.
    But I will commit to you, I understand the importance of 
this, the importance to you, and I will make this a high 
priority. And I will do whatever I can to make this a success, 
and we have committed to November 2009 to make our port open so 
that we can connect with St. Stephen, Canada, and I will make 
this a high priority and will do what I can.
    Senator Collins. Thank you.
    Mr. Chairman, do you want me to yield back to you now? Are 
we going to do a second round?
    Chairman Lieberman. Go right ahead, because I took a lot of 
extra time.
    Senator Collins. Mr. Williams, a second port of entry in 
Maine that I want to discuss with you is in the town of Van 
Buren. Last weekend, I had the opportunity to tour both what 
had been the permanent port of entry facility in Van Buren, 
which was severely damaged in a flooding in early May, as well 
as to tour the temporary port of entry that is now located 
there, which is essentially a double-wide trailer or 
manufactured house.
    First, let me say that GSA was very responsive in putting 
the temporary facility at this very busy port of entry. The 
problem with the temporary port of entry facility, however, is 
that it is not winterized. And according to the Customs and 
Border Protection (CBP) officers who were manning it, it is 
obviously fine on a sunny day in July, but winter comes very 
soon, and there is no insulation underneath this manufactured 
house. The pipes are going to freeze. There is no canopy over 
the agents who are checking people in the traffic lane. It 
desperately needs to be winterized in order for the officers to 
operate effectively, safely, and efficiently this winter. So 
that is the first problem that I would like you to address.
    Does GSA have plans to upgrade the temporary facility to 
make it safe and secure for the winter months?
    Mr. Williams. Yes, Senator, we do, and our responsiveness 
on Van Buren will continue. It will be winterized. And those 
CBP officers that are up there, we will make sure they are 
taken care of. They are a group that I have worked with very 
closely, and we understand the need for winterization of those 
trailers, and we will do that.
    Senator Collins. Thank you. Second, and related to this 
same border crossing, every single one of the customs agents 
and border protection officials who are there told me that the 
temporary facility was better than the permanent facility. 
[Laughter.]
    And I am not kidding about that. I toured the permanent 
facility. There is asbestos. There are cracks in the wall. It 
is sliding into the river so it is uneven. And a lot of those 
problems, I regret to tell you, were there before the terrible 
flooding that made the facility unusable.
    So the plea that I heard from all of the dedicated officers 
who are working at that port of entry was, ``Please don't just 
repair this. We need a new, modern, safe, and secure port of 
entry.'' And I would be more than happy to have you come to 
Aroostook County, Maine, and see that port of entry, and then 
we could go to Washington County and see the delays at the 
Calais port of entry. But this really needs the attention of 
CBP and GSA, and I am asking you today to do everything you can 
to work very closely with CBP to plan, design, and construct a 
desperately needed new port of entry. It was really telling to 
me that even though these officers are housed in this very 
temporary facility, they preferred it to the permanent port of 
entry facility.
    Mr. Williams. Well, Senator, I do not think we would like 
to see them slip into the St. John's River.
    Senator Collins. Exactly.
    Mr. Williams. So I understand, like you, that they are very 
happy with the current conditions, the trailers that we put 
there. I think in terms of looking to the future, we are 
working closely with CBP. I think they are even meeting today, 
and I would say all options are on the table. We would like to 
make sure we take care of our Customs and Border Protection 
officers. They do, as I have always said, a magnificent job for 
this country. In fact, one of my friends who is a 30-year CBP 
person is here today with me.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    I hope you can take up Senator Collins' invitation to go to 
Maine.
    Mr. Williams. I would love to.
    Chairman Lieberman. And I would certainly urge you to do it 
this summer. [Laughter.]
    Mr. Williams. Actually, I do not mind going in the winter. 
In one of my prior jobs, Senator Stevens challenged me to go to 
Alaska. I did in February, and I did see 40 below. I do not 
mind going in the winter either.
    Chairman Lieberman. Oh, this will be mild by comparison.
    Let me just ask you a final wrap-up question on the Sun 
Microsystems case. You testified here this morning that at that 
initial August 14, 2006--was it a meeting or a conference call?
    Mr. Williams. It was a meeting, but there were also people 
on the call.
    Chairman Lieberman. You heard about the past problems that 
Sun Microsystems had, and the Inspector General as well--I do 
not know whether they told you about the reference to the 
Justice Department, but there had been a problem. And I think 
you indicated why, nonetheless, you thought it was appropriate 
to proceed.
    As a general rule, as we go forward, what weight do you 
think the GSA Administrator should give to a vendor's past 
behavior or record in deciding on future dealings with the 
vendor?
    Mr. Williams. Well, I think that is really a responsibility 
of the contracting officer, and that is a responsibility under 
the FAR to look at whether the proposed contractor has the 
business ethics, judgment, everything in order to award them a 
Federal contract, to put our trust in them.
    I do think that, as I understood this, people were 
concerned about the past allegations, but they felt like they 
had solved it before going forward with a new contract. And I 
absolutely supported them in going to the Justice Department. I 
think they said they were considering it. And, obviously, if 
they have done something to cheat the taxpayer, go after them. 
And I support that.
    In fact, we even talked about the possibility of asserting 
a claim against Sun Microsystems to support the idea, and they 
said, no, do not do that, we are going to pursue our own 
separate case.
    And there was even talk that if we awarded a contract to 
them, it gave us more ammunition in going after Sun 
Microsystems if they owed this money because that way we could 
deduct money from the new contract as opposed to not having a 
contract at all.
    So I was trying to support them in what they were trying to 
do, but it was also my understanding that the problems of 
dealing with Sun Microsystems in the future had been dealt 
with. In fact, the Sun Microsystems Vice President told me, he 
said, ``Mea culpa. My systems did not track discounts.'' He 
said, ``Someday I am going to write you a check,'' and I know 
that. And he said, ``But I have spent several million dollars 
to fix the system deficiencies and, according to your plan, to 
fix it so it tracked discounts.''
    So from what I knew, people had been working with Sun 
Microsystems to fix the problems going forward. But I also 
supported going after them for the money they owed us from the 
past.
    Chairman Lieberman. Good enough. Thank you.
    Let's move on to the other matter I mentioned in the 
opening statement. As you know from your own personal 
experience, the Department of Homeland Security lacks a real 
headquarters. It is currently spread throughout 70 buildings 
and 40 sites across the National Capital region, which, of 
course, makes communication and coordination among the various 
components a real challenge.
    GSA has been working to establish a new comprehensive 
headquarters on the St. Elizabeths Hospital campus here in 
Washington, DC, for the past couple of years. I appreciate the 
obstacles that GSA has encountered on this project, including a 
lack of sufficient funding from Congress. But I want to mention 
one particular obstacle that still remains, the approval of the 
National Capital Planning Commission (NCPC).
    Apparently, despite receiving comments from the Commission 
on the draft master plan for St. Elizabeths in November 2007, 
GSA has not yet returned to the National Capital Planning 
Commission for final approval.
    I wanted to ask you to talk first about why this critical 
project has been repeatedly delayed. And, second, to the extent 
that you are able today, or you want to go back and talk to 
anybody at GSA, I wanted to ask you to commit to submitting the 
final master plan to the National Capital Planning Commission 
before the end of this calendar year.
    Mr. Williams. First of all, Senator, I would say I 
completely agree with the need--not that it takes my 
agreement--to be able to move the Department of Homeland 
Security into a consolidated headquarters. I loved working at 
the Department of Homeland Security. I did for 3 years under 
Governor Ridge and Secretary Chertoff, and we worked hard and I 
loved my time there. But I believe you all created the 
Department of Homeland Security to integrate those functions, 
and I think they need to be physically consolidated in order to 
truly achieve the integration that you all desired.
    So I completely support the St. Elizabeths consolidation. I 
would make that a high priority. And looking at the master 
plan, I think we are on track today, and that is to get the 
draft master plan by November 1, 2008, to the National Capital 
Planning Commission and to start the clock ticking to get the 
final master plan to them December 1, and to make sure we can 
get to a vote by them hopefully by very early in January. I 
think we are on track.
    The ultimate goal is to make sure we meet the needs of 
getting the Coast Guard's headquarters in there before their 
new lease expires at Buzzard's Point, and that is something I 
will make sure I follow, not only this milestone but every one 
after that during my tenure.
    Chairman Lieberman. Good. Very important. I appreciate 
that.
    If we in Congress provided supplemental funding in the 
fiscal year 2008 budget for this project, would that be 
helpful?
    Mr. Williams. I am sure that if you did, we could find ways 
to use it.
    Chairman Lieberman. How would you use it?
    Mr. Williams. Well, we would use it, frankly, to try and 
accelerate the project, if we could. We would look at when the 
money comes. Is it this year? Is it next year? And I think I 
would rather get back to you with exactly what we could do with 
it.
    I will say I think the progress we have made to date is 
because of the collaboration with this Committee, with the 
NCPC, and on the project as a whole. So whatever additional 
resources or things you can provide us, we would certainly look 
to use it productively.
    Chairman Lieberman. Good. And, finally, let me ask you to 
generally speak to your vision of the role of the Office of 
Inspector General (OIG) and what, if any steps you would take 
to ensure that there is the most effective possible partnership 
between the Administrator and the IG. As you know, others have 
described the relationship between former Administrator Doan 
and the Agency's OIG as ``dysfunctional.'' So what are your 
feelings about that relationship?
    Mr. Williams. Well, I would say, again, I feel like I have 
always had a positive relationship with the IG and their staff 
and, frankly, in other places where I have worked. I believe in 
working collaboratively with people as part of a team. As I 
said before, I believe the goals of the Administrator, the IG, 
and all of GSA are common goals, and I think that is what you 
need. You need a team that is focused on common goals and 
working together. And I think to work together as a team, you 
need to communicate and collaborate. And my own office is doing 
that today with the Inspector General. We have monthly meetings 
to look at what are the priorities for both our organizations. 
We work with them on their annual audit plan today, and I think 
we have a very good relationship. And I would like to continue 
and build upon that. I am not the prior Administrator. I am me. 
And I would want to work closely with Brian Miller and his 
staff.
    Chairman Lieberman. Very good. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Williams, since January 2003, the GSA management of 
Federal real property has been on GAO's high-risk list. Several 
years ago, I did an investigation of the government's 
management, or lack thereof, of real property, and we actually 
used St. Elizabeths as an example of what was a tremendous 
asset that was sitting there deteriorating day after day, year 
after year. And one of the reasons I am for the consolidation 
of DHS is not only to help DHS, but to make use of a very 
valuable asset that has been allowed to just go to ruin.
    In general, what is your assessment of GSA's management of 
its real property? There is still a problem with underutilized 
or even unused real property.
    Mr. Williams. I think there are really four challenges that 
probably continue to put it on the high-risk list, and one is 
that I do not believe there are good data about all of the real 
estate, real property that the government holds, GSA included. 
And I think under the real property profile that our Office of 
Government-wide Policy has been compiling, they are starting to 
attack that, looking at how do we get good data. And I think it 
leads to the rest of the problems, which is really looking at 
management of the entire portfolio, not only what GSA has, but 
the rest of the government.
    I think we also have a problem in underutilized space, and 
I think GSA has done a good job looking at lowering the vacancy 
rate as well as disposing of excess property. And I think they 
have put the focus on that of getting rid of those excess 
properties.
    I think the next two problems that put it on the high-risk 
series are the bigger challenges, and first of all, it is the 
costly leases and also the deteriorating buildings. GSA 
estimates we have about a $7.4 billion deficit in repairs and 
alterations that are needed to Federal buildings. And as you 
all said, we have about 8,600 buildings, and about half of 
those are leased space and about half of those are government 
owned. But more and more it is going towards leasing, and the 
leasing is becoming more costly, and it is because we have to 
comply with the scoring rules. And I will not say the scoring 
rules are wrong, but because when we have a capital lease--in 
order to enter into that, we have to score the entire amount of 
it up front. It causes us to enter into short-term leases. It 
causes us to get away from government-owned or construction of 
a government-owned building. And, frankly, GSA has gotten a lot 
of its revenue from its government-owned property, those 1,500 
out of the 8,600 buildings where we get revenue from those 
things that help us to pay for repairs and alterations. So 
where we are entering into these costly leases, we also do not 
have the ability to earn as much revenue, which would then fund 
the repairs and alterations budget.
    So I think we have huge challenges there, and it is not 
just a GSA challenge. I think we need to work with you all on 
that and work with everybody, the Office of Management and 
Budget and everybody. How do we take care of that problem of 
being pushed into these costly leases that then exacerbate the 
problem of not having the revenue to deal with that severe 
shortage in funding for repair and alterations? I am not sure 
right now I have the answer, but certainly it is a problem for 
which I would like to contribute to the solution.
    Senator Collins. Thank you. I look forward to working 
further with you on that issue as well.
    The last issue that I want to bring up is another area that 
GAO has designated as high risk in addition to the management 
of real property, and that is management of interagency 
contracting. The concerns about interagency contracting are not 
limited to GSA's Multiple Awards Schedule programs, but apply 
equally to government-wide acquisition contracts and other 
interagency vehicles. Our contracting reform bill attempts to 
address the proliferation of these vehicles because many of 
them have become duplicative, wasteful, and costly.
    Do you believe that we need a better system to control the 
proliferation of multi-agency contracts?
    Mr. Williams. Yes, I do. I believe the proliferation today 
is contributing to inefficiencies in our Federal acquisition 
system. And while I am not saying the GSA needs to be a 
monopoly on procurement--I do not believe that. But, on the 
other hand, acquisition people are one of the most scarce 
resources we have right now, and it is one of our most 
important functions as government, is to be stewards of the 
Federal contracting dollar. And when you look at how it has 
increased from 5 years ago from $200 billion to well over $400 
billion, we need to make sure that we are proper stewards of 
those acquisition dollars.
    I do not think interagency contracting is a bad thing. In 
fact, I think it can be a very good thing. When agencies are 
very much strapped and need help, they should rely upon common 
channels to the market. But they should not have to spend 
precious acquisition people to go create their own when one 
already exists. They should be utilizing those people, and we 
should utilize them across the Federal Government as 
effectively and efficiently as we can. And having interagency 
vehicles where there are way too many of them and people are 
spending all their time creating something that already exists, 
it is not good for the private sector, it is not good for small 
business, and it is not good for use of our scarce resources of 
acquisition people.
    My belief is let GSA create those channels to the 
marketplace. Let it be efficient. And then let the agency 
acquisition people spend more of their time on the up-front 
requirements and acquisition strategy and more time on post-
award management, not on duplicating interagency vehicles that 
we do not need.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Mr. Williams, thanks for your answers to our questions. You 
have been very responsive. We are going to bring this 
nomination before our Committee at our mark-up next week, next 
Wednesday. As a result, we are going to leave a short time 
frame for the record of this hearing to stay open. We are going 
to close the record at the end of business today. So if you 
have any additional statements you would like to make for the 
record, please get them to us by then, and that will mean that 
our colleagues will have to get you any additional questions 
that they would like answered very quickly.
    But, again, it has been a good hearing. We thank you for 
your years of distinguished public service and for your 
willingness to continue to serve in this capacity.
    If there are no further comments, with that the hearing is 
adjourned.
    Mr. Williams. Thank you.
    [Whereupon, at 1:19 p.m., the Committee was adjourned.]



















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
